                               Office of Inspector General
                              Corporation for National and
                                       Community Service




       PRE-AUDITSURVEYOF THE
    PUERTORICOSTATECOMMISSIONON
         COMMUNITYSERVICE

          OIG REPORTNUMBER
                         04-09




                                               NATIONAL U
                                               COMMUNITY
                                               SERVICERZZ




                       Prepared by:

                       KPMG LLP
                   2001 M Street NW.
                  Washington, DC 20036




This report was issued to Corporation management on March 9, 2004. Under
the laws and regulations governing audit follow up, the Corporation is to make
final management decisions on the report's findings and recommendations no
later than September 9, 2004, and complete its corrective actions by March 9,
2005. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
                                   Office of Inspector General
                         Corporation for National and Community Service
                                       Audit Report 04-09

          Pre-Audit Survey of Corporation for National and Community Service Grants
                                        Awarded to the
                     Puerto Rico State Commission on Community Service

OIG Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation) retained KPMG LLP to perform a pre-audit survey of the Puerto Rico State
Commission on Community Service. The objectives of the pre-audit survey were to evaluate:
(1) the adequacy of the pre-award selection process; (2) the administration of grant funds; and
(3) grant monitoring. The audit period included Program Years 2000-2001 and 2001-2002.

The Commission was awarded Corporation AmeriCorps Formula, Program Development and
Training, and Administrative grants totaling $3,276,865 for Program Years 2000-2001 and 2001 -
2002. During the survey program years, the auditors noted the following: the Commission
could not demonstrate that a competitive selection process was in place for AmeriCorps Formula
Awards; Financial Status Reports were not submitted in a timely manner, and the amounts
reported did not reconcile with subgrantee expenditure records; and the Commission does not
have adequate controls in place to evaluate and monitor its subgrantees. The auditors
recommended performing a full-scope audit to address the survey findings.

The Office of Inspector General has reviewed the report and the work papers supporting the
auditors' conclusions. Our review of the auditors' work papers disclosed no instances where
KPMG LLP did not comply, in all material respects, with generally accepted government
auditing standards.

The Office of Inspector General provided the Puerto Rico State Commission on Community
Service and the Corporation with a draft of this report for their review and comment. Their
responses are included in their entirety as Appendices C and D, respectively.

Background

The Corporation for National and Community Service, pursuant to the National and Community
Service Trust Act, as amended, awards grants and cooperative agreements to State commissions,
nonprofit entities, tribes, and territories to assist in the creation of full-time and part-time national
and community service programs. Currently, under the Act's requirements, the Corporation
awards approximately three-fourths of its AmeriCorps*State/National funds to State
commissions. The State commissions, in turn, fund and oversee the subgrantees that execute the
programs. Through these subgrantees, AmeriCorps members perform service to meet
educational, human, environmental, and public safety needs.
                                                     Pre-Audit Survey of the
                                                  Puerto Rico State Commission
                                                        Table of Contents




RESULTS IN BRIEF ...................................................................................................................... 1

BACKGROUND .............................................................................................................................     2

OVERVIEW OF THE PUERTO RICO STATE COMMISSION .................................................. 3

OBJECTIVES. SCOPE. AND METHODOLOGY .........................................................................                                 3

FINDINGS AND RECOMMENDATIONS ....................................................................................
                                                                                                             5

APPENDIX A-COMMISSION FUNDING: FOR PROGRAM YEARS
2001 AND 2002 ..........................................................................................................................   A.1

APPENDIX B-DETAILED ENGAGEMENT OBJECTIVES AND
   METHODOLOGY ...............................................................................................................             B .1

APPENDIX C-PUERTO                        RICO STATE COMMISSION RESPONSE .................................... C . 1

APPENDIX D-CORPORATION                                RESPONSE .....................................................................       D .1

APPENDIX E-KPMG'S                        COMMENTS ON COMMISSION RESPONSE ............................. E . 1
             KPMG LLP
            2001 M Street. NW
            Washington, DC 20036



October 17,2003



Inspector General
Corporation for National and Community Service:

At your request, KPMG LLP (KPMG) performed a pre-audit survey of the Puerto Rico State
Commission (Commission) on Corporation for National and Community Service (Corporation)
funds received by the Commission for program years 2000-2001 and 2001-2002. The primary
purpose of this survey was to provide a preliminary assessment of:

   the adequacy of the Commission's pre-award selection process;
   the procedures at the Commission for the fiscal administration of Corporation grants; and
   the effectiveness of the Commission's procedures for monitoring subgrantees.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Results in Brief

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Commission's systems for administering AmeriCorps
grants:

    The Commission administers an open, competitive process to select national service
    subgrantees. However, the Commission could not demonstrate that a competitive selection
    process was in place for the AmeriCorps formula grant awards.

    The Commission did not have adequate controls in place over the administration of grant
    funds. Financial Status Reports (FSRs) were not submitted in a timely manner to the
    Corporation, and subgrantee amounts reported in FSRs did not reconcile to subgrantee
    expenditure records. With respect to the Administrative grant, the Commission has not
    tracked or reported match costs since it received the Administrative grant. In addition, costs
    claimed under the Administrative grant included unsupported costs of $3,844.

    The Commission does not have adequate controls in place to evaluate and monitor its
    subgrantees for fiscal compliance.

The section of this report entitled "Findings and Recommendations" describes these weaknesses
in further detail and addresses additional issues noted during the survey.
The Commission is a part of the Puerto Rico Department of Education, Division of Federal
Affairs and, as such, is annually subject to an OMB Circular A-133, Audits of States, Local
Governments, and Non-Profit Organizations, audit performed by external auditors. The external
auditors did not identify the Corporation grants as major programs.

Based on our preliminary assessments and the nature of our findings, we recommend the
performance of a full-scope audit of the Commission for years not beyond record retention
requirements.

Additionally, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are implemented to address the conditions reported herein.
We also recommend that the Corporation consider these conditions in its oversight and
monitoring of the Commission.

Background

The National and Community Service Trust Act of 1993, which amended the National and
Community Service Act of 1990, established the Corporation for National and Community
Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State commissions, nonprofit entities, tribes and territories to assist in the creation of full-time
and part-time national and community service programs. Through these grantees, AmeriCorps
members perform service to meet educational, human, environmental, and public safety needs
throughout the Nation, especially addressing those needs related to poverty. In return for this
service, eligible members may receive a living allowance and post-service educational benefits.

Currently, the Corporation awards approximately three-fourths of its AmeriCorps State/National
funds to State commissions. State commissions are required to include 15 to 25 voting members.
Each commission has a responsibility to develop and communicate a vision and ethic of service
throughout its State.

The commissions provide AmeriCorps funding to approved applicants for service programs
within their States and are responsible for monitoring these subgrantees' compliance with grant
requirements. Commissions are also responsible for providing training and technical assistance
to AmeriCorps State and National Direct programs and to the broader network of service
programs in the State. Commissions are prohibited from directly operating national service
programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by the State commissions. The standards require, in part, that the commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities. The commission must also
provide effective control and accountability for all grant and subgrant cash, real and personal
property, and other assets.
Overview of the Puerto Rico State Commission

The Puerto Rico State Commission, located in San Juan, Puerto Rico, has received AmeriCorps
grant funds from the Corporation for National and Community Service since its inception in
1994. The Commission operates as an agency of the Puerto Rico Department of Education
(Department) and relies on the Department's finance division to perform grant accounting duties.
The Commission has four full-time employees.

As a State agency, the Commission is annually subject to an OMB Circular A-133 audit.
However, the Commission's AmeriCorps grants were not identified as major programs in fiscal
years 2000,2001 or 2002.

The Commission provided the following information for program years 2000-2001 and 2001-
2002:

                                                                          Number of
                                                                          Subgrantees
                             Total Corporation        Number of         Subject to A-133
        Program Year             Funding              Subgrantees           Audits*




* Determination is based solely on the dollar value of Federal awards passed through the
    Commission for each program year. Remaining subgrantees could be subject to an OMB
    Circular A-133 audit if they received additional Federal grant funds from sources other than
    the Corporation.

Appendix A contains more detailed information on funding received from the Corporation during
program years 2000-200 1 and 200 1-2002.

Objectives, Scope, and Methodology

We were engaged by the Office of Inspector General, Corporation for National and Community
Service, to provide an assessment of the systems and procedures in place at the Commission for
administering AmeriCorps grants and for monitoring the fiscal activity of subgrantees. The
primary purpose of this pre-audit survey is to provide a preliminary assessment of:

    the adequacy of the Commission's pre-award selection process;
    the procedures used by the Commission for the fiscal administration of its Corporation
    grants; and
    the effectiveness of the Commission's procedures for monitoring subgrantees.

We also reported on the recommended scope of additional audit procedures to be performed at
the Commission.
Our survey included the following procedures:

   reviewing applicable laws, regulations, grant provisions, the Corporation's State
   Administrative Standards Tool, and other information to gain an understanding of legal,
   statutory and programmatic requirements;

   reviewing OMB Circular A-133 reports and current program year grant agreements for the
   Commission;

   obtaining information from Commission management to complete flowcharts documenting
   the hierarchy of AmeriCorps grant funding for program years 2000-2001 through 2001-2002;
   and

    performing procedures to achieve the objectives, detailed in Appendix B, to assess the
    Commission's internal controls, selection of subgrantees, administration of grant funds, and
    monitoring of subgrantees, including internal controls over service hours and performance
    accomplishment reporting.

As part of the procedures performed, we documented and tested internal controls in place at the
Commission by utilizing inquiries, observations, and examination of a limited sample of source
documents. Finally, we summarized the results of our work to develop the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on October 17,2003.

Our procedures were performed in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. We were not engaged to, and did not, perform an
audit of any financial statements, and the procedures described above were not sufficient to
express an opinion on the controls at the Commission, or on its compliance with applicable laws,
regulations, contracts and grants. Accordingly, we do not express an opinion on any such
financial statements, or on the Commission's controls or compliance. Had we performed
additional procedures, other matters might have come to our attention that would have been
reported.

We provided a draft of this report to the Commission and the Corporation. The Commission's
and the Corporation's responses to our findings and recommendations are included as
Appendices C and D, respectively. We have responded to the Commission's response in
Appendix E.
Findings and Recommendations

Selecting Subgrantees

According to 45 CFR 5 2550.80. (b)(l), "[elach State must administer a competitive process to
select national service programs to be included in any application to the Corporation for
funding."

The Commission advertises funding availability through mailing lists, newspaper
announcements, and newsletters. Selection officials sign conflict of interest statements for each
application reviewed, they receive an instruction package and use a standard form to evaluate
each applicant. However, the following areas need improvement related to the selection process.

        Nun-Competitive Process for AmeriCovs Formula Awards

The Commission was unable to provide documentary evidence that a competitive selection
process was followed when awarding funds to the six subgrantees under the AmeriCorps formula
grant. At the time of these awards, the Commission was part of the Puerto Rico Governor's
office and employed not only a different Executive Director, but also an entirely different staff.
Current personnel at the Commission could not provide documentation to support the selection
process while the Commission was part of the Governor's office. According to minutes of a
meeting held on May 15,2001, between Commission management and Commissioners, the
Commission approved the same six subgrantees-and one additional seventh subgrantee-for the
next grant year without conducting a competitive selection process.

Recommendation

We recommend the Commission improve the effectiveness of its subgrantee selection process by
maintaining all pertinent files and documents, including rejected applicant information, in
accordance with the grant provisions and the record retention standards of the Corporation, as
published in the Code of Federal Regulations and AmeriCorps Grant Provisions.

Administering Grant Funds

As part of the grant administration process, "[glrantees are responsible for managing day-to-day
operations of grant and subgrant supported activities. Grantees must monitor grant and subgrant
supported activities to assure compliance with applicable Federal requirements and that
performance goals are being achieved. Grantee monitoring must cover each program, function or
activity." See 45 CFR 3 2541.400(a).

The Commission has not developed and implemented procedures that provide reasonable
assurance that grant funds received from the Corporation are properly administered. We
identified the following areas for improvement within the grant administration process.
Financial Reporting

During our review, we noted several weaknesses in the Commission's financial reporting as well
as in the Commission's subgrantee reporting process. These weaknesses include:

   The Commission did not always submit FSRs for the Administrative grant in a timely
   manner.
   Subgrantee submission of FSRs through the Web Based Reporting System (WBRS) was
   consistently late, sometimes as many as 18 months past the due date.
   Subgrantee expenditures submitted through WBRS did not always reconcile to the monthly
   expense reports submitted to the Commission.
   Neither the Commission nor the Puerto Rico Department of Education finance division have
   controls in place to monitor and track payments made to subgrantees to ensure that these
   payments are based on projected expenditures and do not exceed actual expenditures.



We recommend the Commission improve the effectiveness of its financial reporting processes as
follows:

    Include additional, detailed procedures in the Commission's current financial manual that are
    reflective of its financial responsibilities, such as procedures specifying:

        Timelines for review and reporting of financial information,
        Follow-up actions on untimely FSRs,
        Requirements for retention of documents, and
        Filing requirements.

    Add procedures requiring that the Commission contact subgrantees when reports are late. If
    needed, the Commission could withhold payments to subgrantees that fail to submit required
    information and reports (e.g., FSRs, program progress reports) by the specified deadlines.
    The Commission should emphasize the importance of submitting the required information
    and reports timely during training sessions and site visits.

    Add procedures for reconciling costs reported on applicable FSRs to the accounting system.
    The Commission should document these reconciliation procedures and any follow-up
    procedures performed.

    Develop and implement procedures to require an analysis of subgrantee expenditures to date,
    as well as expenditures reported on FSRs and the budget, prior to authorizing
    reimbursements.

Once these procedures are developed, they should be implemented immediately
Questioned Costs

        Unsupported Costs Charged to Administrative Grant

The Commission claimed costs to the Administrative grant amounting to $3,844 ($1,719 in 2001
and $2,125 in 2002), that were unsupported. These costs were payroll-related fringe benefit
costs such as pension fund contributions and Christmas bonuses.

Recommendation

We recommend that the Commission improve the effectiveness of controls over the
documentation of expenditures claimed by the Commission. The Commission should develop
and implement procedures to require that documentation is retained for all grant expenditures
claimed.

        Commission Match Not Reported on the Administrative Grant

The Corporation's Administrative grants are awarded with the stipulation that the grantee will
meet certain matching requirements. The Administrative grant awarded to the Commission
requires a Commission match amounting to $135,897 for the first year of the grant and $185,765
in the second year, to supplement Corporation funding. Match information has not been reported
in the Administrative grant FSRs submitted to the Corporation. Since match amounts are not
properly tracked and reported, it is not known whether the Commission met its match
requirements for 2001 and 2002 as required by the Administrative grant provisions.

Recommendation

We recommend that the Commission improve the effectiveness of controls over the accounting
and reporting of match information by developing and implementing a method to account for and
appropriately document the funds used to meet match requirements. Additionally, the
Commission should modify previously submitted FSRs to include appropriate match costs.

W e also recommend that the Corporation determine whether the Commission has met its
matching requirements for the applicable years, as appropriate.

        Excessive Subgrantee Cash Advances

Payments to Commission subgrantees are based on a combination of actual expenditures and
projections. We noted that the projections resulted in excess funding to subgrantees in three
instances as shown in the table on the following page. The overpayments were subsequently
refunded to the Corporation. The amounts refunded, however, did not include any interest
earned on the advances. Section 2543.22 of the Code of Federal Regulations entitled "Payment"
requires recipients to minimize the time elapsing between the transfer of funds and
disbursements by recipients. It also allows only $250 of interest earned to be retained by the
recipient.
                                                                   Date
                                                                Subgrantee            Date Puerto
                         Amount of           Date of Excess     Reimbursed           Rico Treasury
                       Excess Funding         Payment to        Puerto Rico           Reimbursed
                                              Subgrantee       Department of              The
                                                                 Treasury             Corporation
     Youth Service          $3,920           November 2001    August 2002            February 2003
        Center
     Museum and
     Communities
                            $4,649       I   February 2002    April 2002
                                                                                 I   February 2003
       Working
      Together
     University of          $2,089           January 2002     March 2002             February 2003
I    Sacred Heart

    Recommendations

    We recommend the Commission establish proper procedures to limit cash advances for
    subgrantees' immediate needs. Further, interest income in excess of $250 earned on advances
    should be returned to the Corporation. Additionally, we recommend that the Commission:

           Determine which subgrantees (if any) deposit funds into interest-bearing accounts and
           instruct those who do not to open such accounts.
           Determine the amount of interest that would have been earned, from the date the excess
           payment was issued to the subgrantee, in the cited cases had the funds been placed in an
           interest bearing account. The Commission should remit those respective amounts to the
           Corporation.

            Property Management System

    With regard to equipment purchased with Federal funds, Corporation grantees are required to
    maintain a description of the equipment, serial number, source (including award number), title
    vesting information, date of acquisition, percentage of Federal participation, location and
    condition, unit acquisition cost, and disposition information. The Commission has not developed
    control policies and procedures to monitor and maintain property and equipment purchases made
    with Federal funding. Specifically, no procedures are in place to document or maintain
    equipment purchases, equipment dispositions, or equipment transferred to subgrantees.

    Rather than maintaining an updated inventory listing, the Commission relies on occasional
    Department inventories performed by the Puerto Rico Department of Education. The last
    inventory took place on January 29, 2001. In August 2001, Commission computer equipment
    purchased with Corporation funding was stolen and never recovered.

    Recommendation

    We recommend that the Commission develop and implement property and equipment
    management controls, including detailed property and equipment records.
Evaluating and Monitoring Subgrantees

As noted above, the Commission is responsible for monitoring subgrant-supported activities to
assure compliance with applicable Federal requirements and that performance goals are being
achieved. The Commission has not established controls to evaluate and monitor subgrantees,
such as reviewing program and financial reports and scheduling site visits during the grant
period. We identified the following areas for improvement related to the evaluation and
monitoring of subgrantees.

The Commission has not performed subgrantee site visits since July 2001. It relied on an
external firm to evaluate the programmatic operations of the subgrantees during the months of
March, April and May of 2002. The evaluations did not include fiscal evaluations or monitoring.
As a result, the Commission may not be aware of control weaknesses or instances of material
noncompliance related to the subgrantees' financial systems and expenditures documentation.
Without fiscal monitoring, the Commission cannot conclude that (i) subgrantees' accounting
systems are sufficient; (ii) records and support for grant expenditures are complete; (iii)
AmeriCorps member timesheets are complete and accurate; (iv) AmeriCorps members meet
eligibility requirements; (v) living allowances are accurate and proper; (vi) service hours are
properly supported; and (vii) AmeriCorps members are aware of prohibited activities.

Recommendation

We recommend the Commission adhere to its current procedures and conduct annual site visits to
all of its subgrantees so that both programmatic and fiscal aspects of the AmeriCorps program
are monitored.




This report is intended solely for the information and use of the Office of Inspector General, the
management of the Corporation for National and Community Service, the management of the
Puerto Rico State Commission, and the United States Congress. It is not intended to be and
should not be used by anyone other than these specified parties.
                                                                           Appendix A
                      Commission Funding
                                                 -   -   -   --- -   --



         Corporation for National and Community Service
Funding to the Puerto Rico State Commission on Community Service
                   For Program Year 2000 - 2001




                                                                I




        C
             Arnericorps               PDAT                     Administrative
               Formula                 Funds                       Funds
                Funds
             $ 1,279,030                                             S 128,288

               Match                                                   Match
                                                                        $0




   Total Corporation Funds Retained by the Commission $229,288

                   Total Commission Matching Funds $0

    Total Corporation Funds Awarded to Subgrantees $1,279,030



        .t                       f                                   Administrative
         AmeriCorps                    PDAT
          Formula                      Funds                            Funds

         $   1,279,030             $   101,000

              Match                                                       Match
          S 669.875                                                        $0

          Total # of               Total # of                        Total # of SUBS
           SIJBS                    SUBS                                     0
              6                        0

          Total # of               Total # of                        Total # of Sites
            Sites                    Siles                                  0
              6                        0
                                                                  Appendix A

                    Commission Funding
         Corporation for National and Community Service
Funding to the Puerto Rico State Commission on Community Service
                   For Program Year 2001 - 2002




         Americorps
          Formula                   Funds             Funds
           Funds
         $1.45 1,843            $   1 1 1,000       $ 185,765




           Match                                I   Other Funds
                                                     $19.939




                                                I
          $775,040                                    Match




   Total Corporation Funds Retained by the Commission $3 16,704

                   Total Commission Matching Funds $0

    Total Corporation Funds Awarded to Subgrantees $1,45 1,843



        f                                            L
         Amer~corps                 YDAT              Administrative
          Formula                   Funds                Funds

         $   1.451.843          $ 111.000

                                                       Other Funds
                                                        $19,930

              Match                                       Match
          $   775,040                                      $0


          Total # of            Total # of            Total #of SUBS
           SUBS                  SUBS                        0
              7                     0

          Total # of            Total # of            Total # of Sites
            Sites                 Sites                      0
              7                     0
                                                                                Appendix B



              Detailed Engagement Objectives and Methodology

Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the commission's
financial systems and the documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for: (1) to permit the preparation
of reliable financial statements and Federal reports; (2) to maintain accountability over assets;
and (3) to demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified compliance requirements with a direct and
material effect on the Commission's AmeriCorps grant program, as follows: activities allowed or
unallowed and allowable costs; eligibility; matching; period of availability of Corporation funds;
suspension and debarment; subrecipient monitoring; and reporting by the Commission to the
Corporation. We then interviewed key Commission personnel to assess the Commission's
controls related to these requirements.


Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Commission to select national
    service subgrantees to be included in an application to the Corporation;

    as to whether the Commission evaluated the adequacy of potential subgrantee financial
    systems and controls in place to administer a Federal grant program prior to making the
    award to the subgrantees; and

    as to whether Commission involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management personnel
and documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determine if conflict of interest forms for each subgrantee applicant tested were signed by
selection officials annually and maintained by the Commission.

Administering Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;
                                                                               Appendix B


    make a preliminary assessment as to whether the Commission's organizational structure and
    staffing level and skill mix are conducive to effective grant administration;

    make a preliminary assessment as to whether the Commission provided adequate guidance to
    subgrantees related to maintenance of financial systems, records, supporting documentation,
    and reporting of subgrantee activity;

    make a preliminary assessment of the adequacy of financial systems and documentation
    maintained by the Commission to support oversight of subgrantees and required reporting to
    the Corporation (including Financial Status Reports, progress reports, enrollment and exit
    forms, and change of status forms); and,

    determine whether the Commission has procedures in place to verify the accuracy and
    timeliness of reports submitted by subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports and progress
reports submitted by subgrantees, as well as Financial Status Reports submitted by the
Commission to the Corporation, to preliminarily assess the accuracy of the submitted reports.

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission, in conjunction with the Corporation, to implement a comprehensive, non-
    duplicative evaluation and monitoring process for subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of Members, service hour reporting, prohibited activities, payment of living allowances to
    Members, and allowability of costs incurred and claimed under the grants by subgrantees,
    including reported match);

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in subgrantee OMB Circular A-
    133 audit reports, where applicable;

    determine whether program goals are established and whether results are reported and
    compared to program goals; and,

    make a preliminary assessment of the adequacy of the procedures in place to evaluate
    whether subgrantees are achieving their intended purpose.
                                                                             Appendix B


In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to maintain financial and programmatic compliance and related controls at the sites.
We also determined whether the Commission received and reviewed OMB Circular A-133 audit
reports from subgrantees.
Appendix C
OFFICE O F F E D E R A L A F F A i R l




      February 1 3, 2004


      Mr. J. Russell George
      Inspector General
      10 1 New York Avenue
      NW Suite 830
      Washington, D.C. 20525

      Dear Mr. George:

     Thank you for the opportunity to respond to the findings and recommendations contained in the
    ,Office of Inspector General - Corporation for National and Community Service (OIG), Pre-
     Audit Survey number 04-09 (the "Draft Report") dated October 17, 2003.

      I am pleased to announce that on February 9, 2004, Ms. Olga Aldrich was named Executive
      Director of the Puerto Rico State Commission (Commission) of the Corporation for halional and
      Community Service (Corporation). She will be responsible for implementing most of the
      recommendations made by your office.

      We appreciate your staffs hard work in preparing this report. We will be happy to provide you
      with further progress reports upor. our implementation of your recomn~endations.

      Regards,                      ,.---    -.,
                  ..                              /
                                             ,/
        L-/-"..                          4



      Ileana Fas Pa
      Director
                       Puerto Rico State Commission on Community Service



 February 13,2004


 Inspector General
 Corporation for National and Community Service


 The OIG Report Number 04-09 contains three findings with recomn~endations for the
 Commission:


 Finding I : The Commission was unable to provide documentary evidence that a competitive
             selection process was followed when awarding h n d s to the six sub-grantees under
             the AmeriCorps formula grant.

 Commission response:

 The Commission found evidence that the Office of the Governor did follow an evaluation
,selection process for six proposals. The process consisted of 3 Parts; Part 1 Program Design
  (60% of total points), Part 2 Organizational Capabilities (25% of total points) and Part 3 Budget-
  Cost Effectiveness (1 5% of total points). Those proposals were evaluated and approved before
  the funds were granted to the sub grantees. See Appendix A, which include copies of the
  evaluations performed.

 The Commission conducted a competitive selection process for the seventh mentioned sub-
 grantee. See Appendix B, which include copy of the newspaper ads regarding the orientation for
 prospective entities that could prepare proposals and Appendix C, which include copy of the
 evaluation performed.


 Finding 2: The Commission has not developed nor implemented procedures that provide
            reasonable assurance that grant funds received from the Corporation are properly
            administered, specifically in the following areas:

             a. Financial Reporting: The Commission should improve the effectiveness of its
                financial reporting processes.

             b. Unsupported Costs Charged to Administrative Grant: The Commission claimed
                unsupported costs to the administrative grant amounting to $3,844. The costs
                were payroll related fringe benefit such as pension fund contributions and
                Christmas bonuses.
           c. Commission Match Not Reported on the Administrative Grant: Match
              information has not been reported in the administrative grant Financial Status
              Reports (FSRs) which was submitted to the Corporation.

           d. Excessive Sub grantee Cash Advances: Payments to Commission's sub-grantees
              are based on a combination of actual expenditures and projections. In three
              instances projections resulted in excess hnding to sub-grantees.

           e. Property Management System: The Commission has not developed control
              policies and procedures to monitor and maintain federally hnded property and
              equipment purchases.

Commission response:

   Financial reporting: The Commission will implement your recommendations (see Appendix
   D). However, the Commission staff evaluates program expenditures before the
   reimbursement to ascertain that the amount claimed is allowable under current statutes and
   regdations applicable to the program.

   Unsupported Costs Charged to Administrative Grant: As explained to OIG auditors during
   the exit conference on October 17, 2003 those questioned amounts totaling to $3,844
   represents pension fund contributions and Christmas bonuses paid in accordance with local
   laws and regulations. Those benefits are paid to all public sector employees working in
   Puerto Rico. These benefits qualify as allowable costs under OMB Circular ,4437. For hrther
   reference, please see the Puerto Rico Christmas bonus law No. 34 of June 12, 1969, as
   amended.

   Attachment B of OMB Circular letter A- 87 identifies cost categories and provides guidance
   on the allowability of each cost to Governmental grants contracts, The circular clearly states
   under the caption Compensated Service that compensation paid currently or accrued by the
   government unit during the period of performance is allowable as is the case with the
   Christmas Bonus, which is adequately documented and supported by the above mentioned
   law. Fringe benefits are generally allowable if there are reasonable and required by law,
   government unit employee agreements or an established policy. Fringe benefits include, but
   are not limited to, the costs of leave, employee insurance, pensions, and unemployment
   benefit plans.

   Commission Match Not Reported on the Administrative Grant: On December 17, 2003
   the Commission re-submitted the FSR for the twelve (1 2) month period ended on September
   30, 2003. We are still gathering the information in order to submit the revised versions of the
   applicable FSR for prior periods. Beginning with the fiscal year 2004 we had taken actions in
   order to include in the Puerto Rico Department of Education (PRDE) Budget the required
   amount of match as soon as the funds are granted to the Commission. In the past months we
   have strengthen the technical knowledge of our staff in all applicable requirements
   specifically those related to the preparation of the FSR for the Administrative Grant.
     d. Excessive Sub-grantee Cash Advances: As showed in the OIG finding the amounts
        mentioned as excess funding were under $5,000 and were subsequently reimbursed.
        Currently, the Commission no longer advances cash to sub-grantees in order to minimize the
        time elapsing between the transfer of funds and disbursements by sub-grantees. Now the
        payments are made on reimbursement basis, except for program under the first quarter of
        operations.

        We contacted all sub-grantees mentioned in the finding and obtained evidence that
        ascertained that transfers were deposited into non-interest bearing accounts. Therefore there
        are no monies to reimburse to the Commission for interest earned. See Appendix E, which
        include copies of the bank statements of the mentioned sub-grantees.

     e. Property Management System: The Commission implemented your recommendations. We
        prepared a draft of the control policies and procedure to maintain property and equipment
        purchases funded with Federal or State appropriations. The procedures include equipment
        purchases, equipment dispositions and equipment transfers to sub-grantees. As of February
        12, 2004 the Commission completed a physical inventory of all property acquired for its
        administrative facilities and are in the process of preparing a property ledger.


     Finding 3: The Commission has not established controls to evaluate and monitor subgrantees,
                such as reviewing program and financial reports and scheduling site visits during the
?.              grant period.
     Commission response:

     The Commission recognizes the importance of an effective monitoring process intended to
     provide support and assistance to ensure compliance with all applicable laws and regulations for
     the sub-grantees. The Commission will reinforce the importance of adherening to the current
     written policies and procedures through consultation and training.

     The OIG Draft Report contained the statement that "the Commission cannot conclude about the
     completeness of sub-grantees records and support for its expenditure". In response thereto, the
     Commission disagrees because expenditures incurred by sub-grantees are subject to verification
     by the Commission's accountant and its executive director before completing the reimbursement.
Appendix D
                                       C o r p o r a t ~ o nfor       P




    To:             Russell George, Inspector General


    From            ~ a r p r e Rosenberry,
                                f           Director of Grants Management


    C'c:            Michelle Guillennin, Chief Financial Officer
                    Rosie Mauk, Director of AmeriCorps


    Date:           February 13,2004


    Sul?ject:       Response to OIG Draft Audit Report 04-09, Pre-Audit Survey of the
                    Puerto Rico State Commission



    We hive reviewed the draft Pre-Audit Survey of the Puerto Rico State Commission. Due
    to the limited timefranie for response we have not reviewed the audit work papers. We
    \\ill respond to all findings and recommendations \%lienthe audit is issued and we have
    reviewed the findings in detail.




ooo
S   A           L
                             1201 New York Avenue, NW * Washington, DC 20525
                                   202-606-5000 * wuw.nationalservice.org
                            Senior Corps    *   AmeriCorps        *   Learn and Serve America   The Prer~dcnr'sCall lo Serwce
                                                                                Appendix E:

KPMG's Comments on Commission Response

The following paragraphs present KPMG's comments on the information presented in the
Commission's response to the findings and recommendations included in this report. We
continue to believe that, based on the limited procedures performed, our findings are appropriate.
Further, our recommendations, if implemented, should result in improvements to internal
controls over Commission operations.

1.      Non-Competitive Selection Process for AmeriCorps Formula Awards

We agree that the limited documentation submitted in response to our finding appears to support
the Commission's contention that a competitive selection process was in place. However,
without examining the original documentation for the entire process (i.e., information regarding
other potential subgrantees that may have applied and were rejected by the Commission), we are
unable to remove our finding. We suggest that such original documentation be submitted to the
Corporation's Office of Inspector General for review and potential resolution of this finding.

2.      Questioned Costs - Unsupported Costs Charged to Administrative Grant

As noted in our report we were unable to determine the allowability or allocability of these costs
without examining the supporting documentation. The Commission, in its response, has
provided explanations for the basis of these costs, but has not provided documentation
supporting the explanations.
